No.
3fn tEIje
Supreme Court of tfje SJniteti States;
Weih Steve Chang,
Petitioner,
v.
and

Children’s Advocacy Center of Delaware
Respondent.
On Writ of Certiorari

To the United States Court of Appeals
For the Third Circuit

PETITION FOR WRIT OF CERTIORARI

Weih Steve Chang
122 Pumpkin Patch Lane
Hockessin, DE 19707
(302) 494-9992
steve. chang@protonmail. com

QUESTIONS PRESENTED

1. Which one of the two differing standards, the
D.C. Circuit’s “Unfettered Discretion” standard or the
Ninth and Tenth Circuits’ “Rational Basis Test”
standard, is appropriate for evaluating dismissal
pursuant to 31 U.S.C. 3730(c)(2)(A)?
2. Did the Third Circuit sidestep important
constitutional questions regarding the abovereferenced circuit split by misconstruing Relator’s
explicit demands on the record that the District Court
adopt the Ninth and Tenth Circuits’ standard over the
D.C. Circuit standard for evaluating dismissal
pursuant to 31 U.S.C. 3730(c)(2)(A)?
3. Did the Third Circuit fail to recognize the
record below that the District Court enabled legal
malpractice of Relator’s attorneys by denying their
first motion to withdraw as counsel to the extent that
they failed to request a hearing pursuant to 31 U.S.C.
3730(c)(2)(A)?

11

PARTIES TO THE PROCEEDING

The parties to the proceeding in the United
States Court of Appeals for the Third Circuit were
Petitioner Weih Steve Chang and Respondents United
States of America, State of Delaware, and Children's
Advocacy Center of Delaware.

Ill

TABLE OF CONTENTS
QUESTIONS PRESENTED..........................................

i

PARTIES TO THE PROCEEDING..................... ....... n
TABLE OF AUTHORITIES........................ .................. v
OPINIONS BELOW........................................................ 1
JURISDICTION.............................................................. 1
STATUTES AND CONSTITUTION............................ 1
STATEMENT OF THE CASE............. ......................... 1
A. The Constitutionality of Qui Tara and the Two
Differing Standards in 31 U.S.C. 3730(c)(2)(A). 4
B. Due Process Protection of Relator’s Private
Right of Action in 31 U.S.C. 3730(c)(2)(A)....

5

C. “Availing Himself’ to “An Opportunity for a
Hearing” through Relator’s Defecting Attorneys
is Unattainable........................................................ 7
REASONS FOR GRANTING THE WRIT....................
I.

The Parties Presented an Opportunity to
Address the Circuit Split Involving Conflicting
Interpretations of Numerous Statutory and
Constitutional Provisions..................................... 8

II. The Granston Memo, Rooted in the D.C. Circuit
Standard, Has Recently Raised Congressional
Concerns ..................... ....................................
9
III. The Parties Presented a Perfect Vehicle to
Uphold the Separation-of-Powers Doctrine .... 10
CONCLUSION

11

IV

APPENDIX
District Court Order Granting the United States’
Motion to Dismiss (May 14, 2018)................
App. 1
District Court Order Granting the State of
Delaware’s Motion to Dismiss (May 14, 2018) ...App. 2
Court of Appeals Order Denying Appellant’s Motion
to Supplement the Record (October 30, 2018) ...App. 3
Court of Appeals Order Denying Appellant’s Motion
to Stay for Partial Remand of Bringing the Issue of
Conflict of Interest before the District Court
(September 12, 2019)
App. 5
Court of Appeals Opinion Affirming District Court
Orders (September 12, 2019)
App. 7
Court of Appeals Order Denying Appellant’s Petition
for Rehearing (December 20, 2019)
App. 16

V

TABLE OF AUTHORITIES
CASES
United States ex rel. Sequoia Orange Co. v. BairdNeece Packing Corp.
5

151 F.3d 1139, 1145-46 (9th Cir. 1998)

.passim

Swift v. United States,
318 F.3d 250, 252-53 (D.C. Cir. 2003)

passim

STATUTES
31 U.S.C. § 3730(c)(2)(A) ................

passim

Del. Code Ann. tit. 6, § 1204(b) ......

passim

Del. Code Ann. tit. 11, §§ 8700-8709

passim

OTHER AUTHORITIES
The Granston Memorandum,
Factors for Evaluating Dismissal Pursuant to
31 U.S.C. § 3730(c)(2)(A) (January 10, 2018).... 9
The Grassley Letter to Attorney General Barr,
The DOJ implementation of the Granston
Memorandum (September 4, 2019)

9

1
PETITION FOR A WRIT OF CERTIORARI

Weih Steve Chang petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Third Circuit which dismissed
his appeal in this case.
OPINIONS BELOW
Without issuing a supporting opinion the
District Court granted the governments’ motions to
dismiss pursuant to 31 U.S.C. 3730(c)(2)(A) on May 14,
2018. The Third Circuit issued its opinion and entered
judgment on September 12, 2019, and denied a motion
for rehearing on December 20, 2019. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
STATUTES AND CONSTITUTION
This case involves interpretation of statutory
and constitutional provisions.
STATEMENT OF THE CASE
Petitioner/Relator filed a qui tam action against
the Children’s Advocacy Center of Delaware
(“Center”), asserting claims on behalf of the United
States and the State of Delaware under the FCA and
the Delaware False Claims Act (“DFCA”).1 The qui
tam action outlined the pervasive and longstanding
fraudulent practices of the Center which received
1 The FCA and the DFCA are materially identical for the
purposes of this petition. Compare 31 U.S.C. § 3730(c)(2)(A),
with Del. Code Ann. tit. 6, § 1204(b).

2
funding from the federal and state governments by
misrepresenting material information in its funding
applications.
The granting of federal funds to the Center is
within the powers and duties of a state agency, i.e.,
Delaware’s Criminal Justice Council (“CJC”),
pursuant to 11 Del. C. §§ 8700-8709, which requires
inter alia a federal judge to participate in the decision­
making of the granting agency. 2
Both federal and state prosecutors declined to
intervene as plaintiffs. Relator filed an amended
complaint, the Center responded with its motion to
dismiss. The same federal judge on the granting
agency, the CJC, denied the Center’s motion and
ordered a meet-and-confer to discuss a pretrial and
trial schedule.
Within a week after the federal judge denied the
Center’s motion to dismiss and nearly three years after
Relator had filed his original complaint, the United
States and Delaware each moved to dismiss the case
pursuant to 31 U.S.C. 3730(c)(2)(A). They argued for
dismissal under both the D.C. Circuit’s “Unfettered
Discretion” standard and the Ninth Circuit’s “Rational
Relation Test” standard and asserted that they had
investigated the qui tam allegations and discovered
them to be “factually incorrect and legally

2 11 Del. C. § 8701(25) provides for “a sitting judge of the
United States District Court for the District of Delaware as
designated by the Chief Judge of the United States District
Court for the District of Delaware.”

3
insufficient.” 3
On the same date when the governments moved
to dismiss, Relator’s attorneys moved to withdraw and
asked the federal judge to allow Relator time to seek
replacement counsel. The federal judge denied the
motion to withdraw and effectively compelled the
Relator’s attorneys to continue legal representation
despite their announced intention to abandon
Relator’s case. As a result, Relator lost the opportunity
to seek replacement counsel.
Both the United States and Delaware
acknowledged and did not object to the statutory
languages which permitted Relator with “an
opportunity for a hearing on the motion” under the
FCA and the DFCA respectively. No such hearing was
requested by the defecting attorneys, who were
compelled to remain in the case by the presiding judge.
In Relator’s consolidated opposition to the
governments’ motions, Relator first argued that
application of either the Ninth Circuit standard or the
D.C. Circuit standard was inappropriate because
“generally, the court on a motion to dismiss should
only consider allegations in the complaint, exhibits
attached to the complaint, and matters of public
record.” The presiding judge did exactly that in
denying the Center’s motion to dismiss.
Relator further argued that the District Court

3 The federal judge having been a member of the granting
agency to the Center from 2008 to 2017 denied the Center’s
motion to dismiss.

4
“should not adopt the ‘unfettered discretion’ standard”
and that “dismissal is not warranted under the
rational basis test” because “this matter has survived
two motions to dismiss.”
The District Court granted the government
lawyers’ motions without conducting an in-person
hearing or issuing a supporting opinion. Relator timely
appealed.
During his appeal and on October 17, 2018,
Relator moved to supplement the Center’s IRS and
other business records that demonstrate Delaware
officials’ corporate ties to the defendant. Relator
explained the records would have been “germane to
whether the dismissal sought by the government is
fraudulent, arbitrary and capricious, or illegal” under
the Ninth Circuit standard. The Third Circuit denied
the motion.
On August 23, 2019, Relator moved to stay and
for partial remand to bring the issue of the district
court judge’s conflict of interest before the district
court. The Third Circuit denied the motion to stay,
issued its opinion on September 12, 2019, and denied
Relator’s petition for rehearing on December 20, 2019.
A. The Constitutionality of Qui Tam and the
Two Differing Standards in 31 U.S.C.
3730(c)(2)(A)
After explicitly requesting the District Court to
adopt the Ninth Circuit standard below and in support

5
of his two-part argument4 on appeal Relator criticized
the D.C. Circuit standard on constitutional grounds in
his appellate briefs. Specifically, Relator argued that
the D.C. Circuit standard violates both the statutory
provision of “an opportunity for a hearing” and
constitutional provisions as well, including but not
limited to the Separation-of-Powers doctrine. 5
For this reason alone, the Ninth and Tenth
Circuits’ “Rational Basis Test” standard is appropriate
for evaluating dismissal pursuant to 31 U.S.C.
3730(c)(2)(A).
The
Third
Circuit
acknowledged
“an
opportunity for us to take a side in a putative circuit
split” but decided instead that “we need not take a side
in this circuit split..because “the government has an
interest in minimizing unnecessary or burdensome
litigation costs” under either one of the two standards.
B. Due Process Protection of Relator’s
Private Right of Action in 31 U.S.C.
3730(c)(2)(A)
However, in its decision, the Third Circuit
sidestepped the important constitutional questions
regarding the circuit split and misconstrued Relator’s
explicit demands on the record that the District Court

.

4 “The District Court violated the federal and state qui tarn
statutes by granting the governments’ motions to dismiss without
providing the relator with “a hearing on the motion” and on the
basis that the governments have unfettered discretion to move to
dismiss qui tarn claims.”
5 The constitutional analyses in the appellate briefs are in the
records below and need not be repeated in this Petition.

6
adopt the Ninth and Tenth Circuits’ standard and
provide him with a hearing.
First, under the Ninth Circuit standard, an
evidentiary hearing is appropriate “if the relator
presents a colorable claim that the settlement or
dismissal is unreasonable in light of existing evidence,
that the Government has not fully investigated the
allegations, or that the Government’s decision was
based on arbitrary or improper considerations.”
Relator’s explicit demands rest on the records and
evidence supporting more than a colorable claim. His
claims were based on statistical evidence which
unimpeachably demonstrated that the Center
consistently and fraudulently submitted false funding
applications. The action had “survived two motions to
dismiss, pursuant to Relator’s efforts,” not the
governments’.
The Ninth Circuit standard was of importance
to Relator since the presiding federal judge was a
decade-long member of the granting agency to the
Center and had denied the Center’s motion to dismiss
based on his personal knowledge of existing evidence
presumably under the Ninth Circuit standard. He
would have to either issue a supporting opinion or hold
an evidentiary hearing if he was deciding to reverse
himself and to dismiss based on the governments’
assertions.
Second,
interest with
unnecessary or
as alleged in

Relator lawfully shared the same
the government “in minimizing
burdensome litigation costs” because,
the original complaint and in the

7
proposed second amended complaint, the Center’s
fraudulent practices had permitted a prolific pedophile
to walk free and had caused multiple malicious and
wasteful prosecutions of innocent individuals, all of
which cost the government enormous prosecutorial
resources and other public expenses that could have
been entirely avoided.
Third, Relator argued that the “hearing”
language in 31 U.S.C. 3730(c)(2)(A) reflects the due
process protection clauses of the Constitution. Once
the relator proved a colorable claim under the private
right of action authorized by the FCA and the DFCA,
he should have been granted a hearing. For this reason
alone, the Ninth and Tenth Circuits’ “Rational Basis
Test” standard is appropriate for evaluating dismissal
pursuant to 31 U.S.C. 3730(c)(2)(A).
C. “Availing Himself’ to “An Opportunity for
a Hearing” through Relator’s Defecting
Attorneys is Unattainable.
The governments raised a new argument on
appeal. The United States asserted that “the District
Court provided an adequate ‘opportunity for a
hearing’...when it gave the Relator an opportunity to
oppose the Government’s motion in writing.” Delaware
joined by asserting that Relator “had ‘an opportunity
for a hearing’ of which he failed to avail himself.”
Taking on the new argument the Third Circuit
further misconstrued Relator’s records and position
that, somehow, “the FCA guarantees him an
automatic in-person hearing” without one expressly
requested.

8

Implicit in the governments’ new argument is a
presumption that Relator was being ably represented
by competent counsel who held his interest
paramount. The records in the District Court show
otherwise. The government lawyers and Relator’s
attorneys timed the motions to dismiss and a motion
to withdraw as counsel on the same day. Both
government lawyers and the District Court knew from
the docket records that Relator’s attorneys recently
switched to a different law firm and then abandoned
Relator shortly afterwards. The District Court allowed
the legal malpractice to continue knowing Relator had
to rely on his then disinterested attorneys who failed
to request a hearing.
The Third Circuit failed to recognize that the
District Court enabled legal malpractice of Relator’s
attorneys by denying their first motion to withdraw as
counsel to the extent that they failed to request a
hearing pursuant to 31 U.S.C. 3730(c)(2)(A).
REASONS FOR GRANTING THE WRIT
I. The Parties Presented an Opportunity to
Address
the
Circuit Split
Involving
Conflicting Interpretations of Numerous
Statutory and Constitutional Provisions.
At minimum, the conflicting interpretations of the
Take Care Clause and the Separation-of-Powers
Doctrine in the two differing standards of review
regarding 31 U.S.C. 3730(c)(2)(A) is troubling enough
for this Court to weigh in.

9
The parties presented the two differing standards
in the District Court, which regrettably performed no
analysis and issued no opinion. The Third Circuit
circumvented the same set of important questions by
misconstruing the record below and sidestepping the
circuit split.
This Court must grant review in order to provide
much needed clarity that will benefit all parties in
future qui tam actions. Doing so would not only remove
the uncertainty that now exists but would also
promote justice by providing whistle-blowers a fanchance to demonstrate the merits of their actions.
II.

The Granston Memo6, Rooted in the D.C.
Circuit Standard, Has Recently Raised
Congressional Concerns.

When qui tam was originally enacted as Lincoln’s
Law, taxpayers were faced with two excruciating
circumstances, the war itself, and a few powerful
government officials in collusion with war profiteers.
Lincoln’s Law authorized a private cause of action to
provide a counter-fraud measure without fear of
governmental interference. The Granston Memo
rooted in the D.C. Circuit standard is killing the
original spirit of Lincoln’s Law.
On September 4, 2019, the Senate Finance
Committee Chair expressed concerns with Attorney
General William Barr finding that by implementing
6 A memorandum authored by Michael Granston, Director of
the Civil Fraud Section and issued on January 10, 2018,
addresses the DOJ’s authority to dismiss a qui tam case under
31 U.S.C. § 3730(c)(2)(A).

10
the Granston Memo “DOJ has moved to dismiss or
threaten to dismiss several cases at least in part
because of litigation costs, even though its arguments
were vague, pretextual and could not demonstrate cost
was prohibitive.” This Court must grant review to
strike down the “unfettered discretion” standard.
III. The Parties Presented a Perfect Vehicle to
Uphold the Separation-of-Powers Doctrine.
The Center, a private corporation receiving public
funding, is governed and advised by a board consisting
of government officials. Relator moved the Third
Circuit for leave to expand the record as evidence of a
conflict of interest between the Center and the
officials. The motion was quickly denied.
The Center is federally funded by the CJC, the
granting agency which consists of more than twentyfive officials, federal and state, prosecutorial and
judicial, including the federal judge who sat and
decided the case. Certainly, this Court must feel
uncomfortable, at the least, when an alliance of
private and government officials and agencies are
permitted to dismiss credible allegations against
themselves without even the fundamental fairness of
a hearing!
The FCA and the DFCA authorize a private cause
of action to challenge the Center’s fraudulent practices
despite of its governmental affiliations. The federal
and state prosecutors, the officers representing the
United States and Delaware, relied on the “unfettered
discretion” to stop this most effective, and only, antifraud measure. This Court must grant review to place

11
governments’ “unfettered discretion” back into the
checks and balances under the Separation-of-Power
doctrine.
CONCLUSION
This Court should grant the petition.
Weih Steve Chang
122 Pumpkin Patch Lane
Hockessin, DE 19707
(302) 494-9992
steve.chang@protonmail.com

